VA Office of Inspector General
                                 OFFICE OF AUDITS AND EVALUATIONS



                                                                     Department of 

                                                                    Veterans Affairs 

                                                                         Review of 

                                                                    Separately Priced Item 

                                                                    Purchases for Training 

                                                                        Conferences 





                                                                                    September 30, 2013
                                                                                     13-00455-345
             ACRONYMS AND ABBREVIATIONS

COR          Contracting Officer’s Representative
DRF          Delivery Receipt Form
HR&A         Office of Human Resources and Administration
IA           Interagency Agreement
OALC         Office of Acquisition, Logistics, and Construction
OAO          Office of Acquisition Operations
OIG          Office of Inspector General
OPM          Office of Personnel Management
SMG          Strategic Management Group
SPI          Separately Priced Item
VA           Department of Veterans Affairs




       To Report Suspected Wrongdoing in VA Programs and Operations: 

                            Telephone: 1-800-488-8244 

                           Email: vaoighotline@va.gov

                      (On the Web: www.va.gov/oig/hotline) 

                    Report Highlights: Review of VA’s SPI 

                    Purchases for Training Conferences 


Why We Did This Review                             competitive contracting. We also questioned
                                                   $697,000 in prohibited service fees paid to the
VA reported spending approximately                 prime vendor and $132,000 in service fees
$15.5 million on three financial management        paid to OPM associated with inadequate
training conferences in 2010 and 2011 using        oversight.
an interagency agreement (IA) with the Office
of Personnel Management (OPM).                     What We Recommended
Separately priced item (SPI) purchases have        We recommended the Assistant Secretary for
not been a focus of our prior reports, yet SPIs    Human Resources and Administration
pose financial risks if oversight is inadequate.   consider discontinuing the use of assisted
Of the $15.5 million VA reported spending on       acquisition IAs with OPM for training
these conferences, about $6.7 million was          conferences and establish controls to improve
spent on SPI purchases and related service         oversight of SPIs purchased through existing
fees. We conducted this review to assess           assisted acquisition IAs with OPM.
VA’s oversight of SPI purchases.
                                                   We recommended the Principal Executive
What We Found                                      Director, Office of Acquisition, Logistics, and
                                                   Construction update policy to ensure a
Our review of three conferences found VA           qualified individual with appropriate training
paid about $5.3 million for goods and services     in contracting is assigned to all IAs and take
the prime vendor should not have purchased         action to recover service fees paid to the
as SPIs. Instead, VA and OPM should have           prime vendor and OPM that were
identified essential goods and services and        inappropriate or associated with inadequate
required the prime vendor to deliver them as       oversight.
firm-fixed-price tasks rather than as SPIs.
VA and OPM did not approve all SPI                 Agency Comments
purchases in advance, and VA paid the prime
vendor for SPIs and service fees without           The Assistant Secretary for Human Resources
adequate supporting documentation. VA paid         and Administration and the Principal
the prime vendor about $697,000 in                 Executive Director, Office of Acquisition,
inappropriate service fees. Additionally, VA       Logistics, and Construction concurred with
paid OPM about $132,000 in service fees            our recommendations and provided action
associated with inappropriate SPI purchases.       plans to address the recommendations. We
                                                   consider the action plans acceptable and will
VA placed its trust and reliance on OPM to         follow up on their implementation.
manage and administer the IA without
establishing adequate oversight. This resulted
in VA relinquishing its responsibility and
accountability to sufficiently monitor and                    LINDA A. HALLIDAY
review conference-related expenditures. We                Assistant Inspector General
questioned about $1.1 million in SPI                       for Audits and Evaluations
purchases that could have been saved through

                                                                                               i
                                           TABLE OF CONTENTS


Introduction......................................................................................................................................1
 

Results and Recommendations ........................................................................................................2
 

    Finding                Inadequate Oversight Resulted in Improper Purchases of Separately Priced 

                           Items and Inappropriate Service Fees .................................................................2
 

                           Recommendations .............................................................................................11 


Appendix A                 Background .......................................................................................................13
 

Appendix B                 Scope and Methodology....................................................................................14 


Appendix C                 Potential Monetary Benefits in Accordance With Inspector General Act 

                           Amendments .....................................................................................................16
 

Appendix D                 Assistant Secretary for Human Resources and Administration Comments ......17 


Appendix E                 Principal Executive Director, Office of Acquisition, Logistics, and 

                           Construction Comments....................................................................................19 


Appendix F                 Office of Inspector General Contact and Staff Acknowledgments...................21 


Appendix G                 Report Distribution ...........................................................................................22 





                                                                                                                                                 ii
                                                  Review of VA’s SPI Purchases for Training Conferences



                    INTRODUCTION
Objective           We conducted this review to assess VA’s oversight of separately priced
                    items (SPIs) purchased through an assisted acquisition interagency
                    agreement (IA) for three VA financial management training conferences held
                    in August 2010, December 2010, and March 2011.1

Interagency         VA used an assisted acquisition IA with the Office of Personnel
Agreement           Management (OPM) to fund, plan, and conduct the conferences. On VA’s
With OPM
                    behalf, OPM was responsible for conducting market research; considering
                    appropriate sources for goods and services; and developing, awarding, and
                    administering contracts and subcontracts. OPM selected a prime vendor to
                    help plan, develop, and carry out tasks under the IA.

Separately Priced   SPIs are incidental items the prime vendor can purchase to support tasks
Items               developed under the IA. SPI purchases are not included within the
                    firm-fixed-price cost of tasks developed to support the conferences—they are
                    additional costs. SPIs related to these conferences were billed at cost plus a
                    percentage of cost in additional service fees.

IA Issues           While SPIs were not a focus of past VA Office of Inspector General (OIG)
Previously          reports, we have identified significant issues regarding VA’s assisted
Reported by
VA OIG
                    acquisition IAs with OPM in three previous reports. Our Review of
                    Acquisitions Supporting the Veteran Employment Services Office (Report
                    No. 13-00644-231, June 25, 2013) found that VA acquired excess services
                    when it expanded an IA with OPM to provide two employment call centers.
                    These call centers had call volumes so low during a 13-month period that
                    each call center employee handled an average of 2.4 calls per day.

                    The Administrative Investigation of the FY 2011 Human Resources
                    Conferences in Orlando, Florida (Report No. 12-02525-291,
                    September 30, 2012) reported VA’s processes and oversight were too weak,
                    ineffective, and in some instances, nonexistent to ensure that conference
                    purchases using an IA with OPM were accurate, appropriate, necessary, and
                    reasonably priced.

                    The Audit of ADVANCE and the Corporate Senior Executive Management
                    Office Human Capital Programs (Report No. 11-02433-220,
                    August 2, 2012) reported VA’s acquisition planning was inadequate and did
                    not justify its determination that IAs with OPM represented the best
                    procurement approach.


                    1
                      VA held a fourth financial management training conference in August 2012, which was not
                    included in our review because it was significantly smaller in scope. It provided training to
                    just over 100 employees.


VA Office of Inspector General                                                                                 1
                                             Review of VA’s SPI Purchases for Training Conferences



                    RESULTS AND RECOMMENDATIONS
Finding 	           Inadequate Oversight Resulted in Improper Purchases
                    of Separately Priced Items and Inappropriate Service
                    Fees

                    VA reported spending approximately $15.5 million using an assisted
                    acquisition IA with OPM on three financial management training
                    conferences in 2010 and 2011. This included approximately $6.7 million in
                    SPI purchases and related service fees. We found VA paid about
                    $5.3 million for goods and services the prime vendor should not have
                    purchased as SPIs, but found that these purchases were in support of the
                    conferences. VA and OPM lacked documentation of required approvals for
                    approximately $3.4 million (51 percent) of the $6.7 million spent on SPI
                    purchases and related service fees. VA paid the prime vendor for SPI
                    purchases and service fees without adequate supporting documentation. In
                    addition, VA paid the prime vendor about $697,000 in inappropriate service
                    fees and paid OPM about $132,000 in service fees associated with
                    inappropriate SPI purchases.

                    These systemic issues occurred because VA placed its trust and reliance on
                    OPM to manage and administer the IA without establishing adequate
                    oversight.    This resulted in VA relinquishing its responsibility and
                    accountability to sufficiently monitor and review conference-related
                    expenditures. We questioned about $1.1 million spent on conference-related
                    SPI purchases, $697,000 in inappropriate service fees paid to the prime
                    vendor, and $132,000 in service fees paid to OPM associated with
                    inadequate oversight.

Interagency         VA’s Office of Human Resources and Administration (HR&A) manages
Agreement           VA’s Human Capital Investment Plan, branded as ADVANCE. VA initiated
With OPM
                    the program in FY 2010 as an agency-wide effort to build and sustain VA’s
                    succession and workforce development and training. VA’s IAs that support
                    ADVANCE generally involve assisted acquisitions, with OPM acting as the
                    servicing agency. As such, OPM is paid a service fee and can award
                    contracts and task orders on behalf of VA. Generally, the servicing agency
                    can manage financial risk by awarding firm-fixed-price tasks.

                    VA used an assisted acquisition IA with OPM to fund, plan, and conduct the
                    three financial management training conferences in August 2010,
                    December 2010, and March 2011. VA Office of Finance officials stated the
                    purpose of the conferences was to train its financial workforce located
                    throughout the country. In our opinion, VA held these conferences to fulfill
                    valid training needs. VA offered 34 individual training courses during the
                    conferences and reported just under 4,300 total staff attended.

VA Office of Inspector General                                                                  2
                                              Review of VA’s SPI Purchases for Training Conferences


                    Table 1 provides total costs reported by VA for the three conferences based
                    on documentation OPM provided to the Office of Finance.

Table 1
                                               Total Conference Costs
                                 Date                   Location              Reported Costs
                       August 2010               San Francisco, CA               $5,700,000
                       December 2010             Dallas, TX                      $4,400,000
                       March 2011                Nashville, TN                   $5,400,000
                             Totals                                             $15,500,000
                    Source: VA Office of Finance
                    Note: 	 We rounded the VA-reported conference costs for reporting
                            purposes.

                    OPM selected a prime vendor to help plan, develop, and carry out conference
                    tasks under the IA, which included VA training conferences. Once OPM
                    selected the prime vendor, the prime vendor used subcontractors to assist in
                    developing and performing the tasks under the IA. For example, the prime
                    vendor used a subcontractor to deliver the training courses at the three
                    conferences. HR&A relied on OPM to conduct market research; consider
                    appropriate sources for goods and services; and develop, award, administer,
                    and monitor contracts. VA paid OPM a 2.5 percent service fee, based on the
                    total cost of the IA, for acting as the servicing agency with responsibility for
                    providing oversight of the prime vendor. However, VA is ultimately
                    responsible for ensuring its funds are spent economically.

Inadequate          We identified several systemic issues regarding VA’s inadequate oversight
Oversight of        of SPI purchases associated with the three conferences.
SPI Purchases
                    	 VA paid for goods and services the prime vendor should not have
                       purchased as SPIs.
                    	 VA and OPM did not approve all SPI purchases in advance, as required.
                    	 VA authorized payments for SPI purchases without supporting
                       documentation.
                    	 VA paid inappropriate service fees to the prime vendor.

Improper Use of     We found VA paid about $5.3 million for goods and services the prime
SPIs                vendor should not have purchased as SPIs. SPIs are incidental items the
                    prime vendor can purchase to support tasks developed under the IA, and
                    therefore, pose financial risks if oversight is inadequate.




VA Office of Inspector General                                                                    3
                                             Review of VA’s SPI Purchases for Training Conferences


                    The base contract between OPM and the prime vendor outlined the following
                    examples of SPIs.

                    	 Products and Product-Related Services—Web site hosting; duplication
                       of materials; and purchase of textbooks, binders, and licenses
                    	 Specialized Services—Highly specialized or nationally recognized
                       experts with justification that supports the use of expertise outside the
                       normal labor categories
                    	 Travel—Performance of travel necessary to complete work that is
                       authorized in writing and in accordance with the Federal Travel
                       Regulation

                    During one of our interviews, OPM clarified the purpose of SPIs by defining
                    them as incidental charges to the overall task. VA and OPM missed a critical
                    planning step that would have identified essential goods and services for
                    conducting the conferences. They should have identified essential goods and
                    services and required the prime vendor to deliver them as firm-fixed-price
                    tasks rather than as SPIs. For example, VA and OPM should have identified
                    training courses, audio visual, food and beverage, and interpreters as
                    essential goods and services and required the prime vendor to develop
                    firm-fixed-price tasks for each. This would have provided a needed control
                    on the prime vendor to use SPIs only for incidental purchases that supported
                    recognized firm-fixed-price tasks.

                    If VA and OPM identified essential goods and services and required
                    firm-fixed-price tasks, the prime vendor would have assumed the risk and
                    responsibility to control costs. Without this incentive to control costs, the
                    prime vendor purchased essential goods and services as SPIs. The prime
                    vendor then billed VA for its costs plus a percentage of costs in additional
                    service fees. VA had no assurance these items were obtained at fair and
                    reasonable prices that represented a best value for the use of VA funds.
                    Table 2 lists purchases we determined as essential goods and services
                    associated with planning and executing the conferences that were improperly
                    purchased as SPIs.




VA Office of Inspector General                                                                  4
                                                 Review of VA’s SPI Purchases for Training Conferences


Table 2
                             Conference Expenses Improperly Purchased as SPIs
                                       SPI Description                               SPI Costs
                        Training Courses                                               $3,700,000
                        Food and Beverage 2                                              $687,000
                        Audio/Visual                                                     $606,000
                        Nashville Temporary Classroom Build-Out                          $287,000
                        Interpreters                                                      $45,900
                            Total                                                      $5,300,000
                    Source: VA OIG analysis of invoices for SPI purchases
                    Note: 	 We rounded the SPI costs for reporting purposes, and the
                            amounts do not add up due to rounding.

                    While we recognized VA would have incurred costs for these goods and
                    services whether they were obtained as firm-fixed-price tasks or as SPIs, we
                    could not determine what would have been a fair and reasonable price for
                    VA to pay. If the prime vendor had an incentive to limit costs, it is a
                    reasonable expectation that VA could have obtained these goods and services
                    at a lower cost, and VA would not have been billed added service fees.

                    Without historical data on which to determine potential savings, we
                    estimated the prime vendor could have obtained these goods and services at a
                    20 percent savings under competitive contracting. As a result, we questioned
                    about $1.1 million spent on conference-related SPI purchases.

                    Following are two examples of conference-related services we determined
                    were improperly purchased as SPIs.

Example 1               VA spent a total of about $3.7 million for training courses for the
                        three conferences. Since VA Office of Finance officials stated the
                        purpose of the conferences was to train its financial workforce
                        located throughout the country, we determined that training courses
                        were essential to the conferences. VA and OPM should have
                        required the prime vendor to deliver the training as a
                        firm-fixed-price task. Instead, the prime vendor purchased training
                        courses as an SPI and billed VA additional service fees.
Example 2               VA spent a total of about $606,000 for audio/visual services
                        supporting classroom activities at the three conferences. VA
                        Financial Policies and Procedures for Conference Planning

                    2
                     VA Office of Finance officials reported that morning and afternoon snacks and beverages
                    were provided at each conference. This is allowable under the Federal Travel Regulation.


VA Office of Inspector General                                                                            5
                                              Review of VA’s SPI Purchases for Training Conferences


                        consider audio/visual an essential element of a conference. VA and
                        OPM should have required the prime vendor to deliver these
                        services as a firm-fixed-price task. Instead, the prime vendor
                        purchased audio/visual services as an SPI and billed VA additional
                        service fees.

Lack of             VA and OPM lacked documentation of required approvals for approximately
Advance             $3.4 million (51 percent) of the $6.7 million spent on SPI purchases and
Approvals for
SPI Purchases
                    related service fees the prime vendor billed as a percentage of the SPI costs.
                    OPM procedures required the prime vendor to provide VA and OPM a
                    pricing proposal for all SPIs. VA and OPM were to approve the pricing
                    proposal in advance of any SPI purchase. VA, OPM, and the prime vendor
                    documented the SPI request and approval process through email.

                    We determined this was not an effective process to track and maintain VA
                    and OPM approvals. The individual designated as the VA Contracting
                    Officer’s Representative (COR) and prime vendor reported searching project
                    files, computers, and email archives for approval of proposed SPI purchases.
                    Because they could not locate approvals to support more than half the cost of
                    SPI purchases, we were unable to determine whether VA and OPM approved
                    the pricing proposals prior to the SPI purchases, as required.

SPI Payments        VA approved payment of SPI purchases without adequate supporting
Made Without        documentation. The VA COR reviewed and approved all Delivery Receipt
Adequate
Documentation
                    Forms (DRFs) that included SPI purchases for the conferences before OPM
                    paid the prime vendor. DRFs typically included a consolidated amount
                    billed to VA for various goods and/or services. The individual could not
                    ensure the prime vendor charged VA the correct amount for the purchases.
                    This was because OPM and the prime vendor did not provide VA invoices
                    that detailed specific line-item costs or receipts that supported the total
                    amount billed on the DRF. Without detailed invoices or receipts that
                    supported billed SPI costs on DRFs, VA paid for SPIs without assurance that
                    billed amounts were accurate and reasonable.

Inappropriate       VA paid the prime vendor approximately $697,000 in inappropriate service
Service Fees        fees. VA and OPM allowed the prime vendor to charge service fees as a
                    percentage of the total cost of SPI purchases, resulting in a
                    cost-plus-percentage-of-cost billing arrangement. This is prohibited by
                    section 3905, title 41, United States Code (41 U.S.C. §3905). It eliminates
                    the incentive to minimize costs. Additionally, the base contract between
                    OPM and the prime vendor did not provide detailed information on these
                    fees, such as a definition or description of the fees. It did not include fixed
                    percentages for each type of service fee and did not define or identify which
                    fees the prime vendor could charge for each type of SPI purchase.

                    Table 3 provides total costs for three types of service fees charged by the
                    prime vendor on conference-related SPI purchases.

VA Office of Inspector General                                                                   6
                                              Review of VA’s SPI Purchases for Training Conferences


Table 3
                                  SPI-Related Service Fees for All Conferences
                                  Service Fee Type                     Service Fee Costs
                        Profit                                                  $318,000
                        General and Administrative                              $254,000
                        Subcontractor Handling                                  $125,000
                           Total                                                $697,000
                    Source: VA OIG analysis of Delivery Receipt Forms and invoices for
                            SPI purchases
                    Note: We rounded the service fee costs for reporting purposes.

                    Since Federal law prohibits cost-plus-percentage-of-cost billing
                    arrangements, we questioned the $697,000 VA paid the prime vendor for
                    service fees related to SPI purchases.

Illustration of     The following is an illustration of how inappropriate service fees
Inappropriate       significantly increased the cost of conference-related SPI purchases.
Service Fees
                    Table 4 provides food and beverage costs for all three conferences that were
                    billed as SPIs and the associated service fees VA paid to the prime vendor.

Table 4
                          Food and Beverage Costs and Service Fees for All Conferences
                                      Description                               Costs
                        Food and Beverage Charges                               $687,000
                        General and Administrative Fees                          $97,300
                        Profit Fees                                              $34,500
                          Total                                                 $819,000
                    Source: VA OIG analysis of Delivery Receipt Forms and invoices for
                            SPI purchases
                    Note: 	 We rounded the costs for reporting purposes, and the amounts
                            do not add up due to rounding.
                    Food and beverage charges for the conferences totaled about $687,000.
                    However, because the prime vendor billed these expenses as SPIs, VA paid
                    just under $132,000 in inappropriate service fees. As a result, VA’s food and
                    beverage charges for the conferences increased by almost 20 percent.

Conference in       One of the three conferences took place in Nashville, TN, during the week of
Nashville, TN       March 28, 2011. The Nashville conference is an example of how VA’s
                    inadequate oversight and accountability led to questionable SPI purchases.
                    Further, this example raised the question of whether VA is receiving a good
                    value from its assisted acquisition IAs with OPM or if VA would have

VA Office of Inspector General                                                                   7
                                             Review of VA’s SPI Purchases for Training Conferences


                    stronger financial and management controls by planning and contracting for
                    conference goods and services internally.

Insufficient        The prime vendor contracted with the Gaylord Opryland Resort and
Classroom           Convention Center in Nashville, TN, as the location for one of the
Space
                    conferences. An Office of Finance official stated senior officials from the
                    Office of Finance and the Office of Management approved the site selection.
                    The individual designated as VA COR stated the conferences required
                    50 classrooms to accommodate the number of classes offered. An HR&A
                    employee conducted market research prior to the site selection and
                    determined the hotel only had 30 classrooms available. VA Office of
                    Finance officials reported they were not aware of the results of this market
                    research and reported receiving information from an HR&A employee
                    showing that the hotel had 60 breakout rooms. In order to conduct one of the
                    conferences closer to the East Coast, plans moved forward with Nashville,
                    TN, as the selected location for the conference.

Temporary           To meet VA’s space needs, the prime vendor submitted an SPI proposal to
Classrooms          build 43 temporary classrooms to VA and OPM for approval. The vendor
                    did not submit the proposal until 5 days prior to the start of the conference.
                    VA and OPM approved the SPI purchase. The prime vendor billed VA
                    about $224,000 for building and dismantling the 43 temporary
                    classrooms, $32,500 for carpeting, and $500 for signage. VA paid an
                    additional $13,000 in taxes and $37,600 in service fees. The photograph
                    below shows the space within the hotel where the temporary classrooms
                    were built.
                                     Space Used for Temporary Classrooms
Figure




                    Source: VA OIG photograph taken on February 21, 2013, at the Gaylord
                            Opryland Resort and Convention Center in Nashville, TN

VA Office of Inspector General                                                                  8
                                                   Review of VA’s SPI Purchases for Training Conferences


                    During the week of the conference, attendees reported acoustic issues with
                    the temporary classrooms. To address the issues, 13 of the temporary
                    classrooms were relocated to a different area of the hotel. This resulted in
                    about $17,300 in additional costs to VA. Total costs to VA associated with
                    the classroom build-out were about $324,000. Table 5 provides SPI costs,
                    taxes, and service fees related to the build-out.

Table 5
                                     Summary of SPI Costs for Temporary Classrooms

                                 SPI Description                             SPI Costs

                         Temporary Classrooms                                   $224,000

                         Carpeting                                               $32,500

                         Signage                                                    $500

                         Relocation of Classrooms                                $17,300

                         Taxes                                                   $13,000

                         SPI-Related Service Fees                                $37,600

                           Total                                                $324,000
                    Source: VA OIG analysis of Delivery Receipt Forms and invoices for SPI
                            purchases
                    Note: 	 We rounded the SPI costs for reporting purposes, and the amounts do
                            not add up due to rounding.

                    The Nashville, TN, conference resulted in VA incurring additional and
                    potentially unnecessary costs. VA could have avoided these costs if it made
                    a better business decision for the location of the conference.

Reasons for         These systemic issues occurred because VA placed its trust and reliance on
Inadequate          OPM to manage and administer the IA without VA establishing adequate
Oversight of
SPI Purchases
                    oversight.    This resulted in VA relinquishing its responsibility and
                    accountability to sufficiently monitor and review conference-related
                    expenditures.

Ineffective         OPM’s monitoring of the prime vendor was ineffective and resulted in
Monitoring by       systemic issues with conference-related SPI purchases. VA paid OPM a
OPM
                    2.5 percent service fee based on total costs associated with the IA. OPM was
                    paid this service fee for assisted acquisitions, which included developing,
                    awarding, administering, and monitoring contracts. While the service fee
                    was based on the total cost of the IA, we calculated the service fee related to
                    money      spent    on     inappropriate     SPI    purchases     was    about
                    $132,000 ($5.3 million × 2.5 percent). We questioned the value VA received
                    for this portion of the service fee paid to OPM based on the ineffective
                    monitoring performed.


VA Office of Inspector General                                                                        9
                                             Review of VA’s SPI Purchases for Training Conferences


                    As stated earlier, OPM allowed the prime vendor to improperly purchase
                    numerous conference goods and services as SPIs. This eliminated the prime
                    vendor’s incentive to minimize costs and resulted in uneconomical SPI
                    purchases and inappropriate service fees.

VA COR Not          The IA with OPM required VA to appoint a trained and certified COR to
Trained and         review deliverables and approve work. According to the Federal Acquisition
Certified
                    Regulation, a COR shall be certified and qualified by training and experience
                    commensurate with the responsibilities he or she is delegated. A COR is to
                    be designated in writing specifying the extent of the COR’s authority and
                    limitations.

                    The individual designated as the VA COR to provide oversight of the work
                    associated with the conferences was not a trained and certified COR.
                    Additionally, this individual did not receive a Letter of Appointment or
                    guidance on roles and responsibilities of a COR prior to the conferences.
                    The individual thought their primary role in the SPI process was to ensure
                    the purchases fit within the scope of the conferences and to certify that
                    purchases were received and acceptable. Appointing an individual who was
                    not trained and qualified to serve as the COR illustrates VA’s reliance on
                    OPM to oversee the contract with the prime vendor and its lack of
                    responsibility to provide effective financial stewardship. VA missed an
                    opportunity to establish a significant internal control to safeguard VA funds.
                    The individual designated as VA COR did not limit the use of SPIs or ensure
                    accurate billing by requiring invoices or receipts to support SPI costs billed
                    on DRFs.

                    In June 2011, VA agreed to a modification to the IA that changed the
                    requirement for a COR. Instead, VA required the appointment of an
                    Initiative Coordinator, who did not need to be trained and certified as a COR.
                    The same individual appointed as the VA COR became the Initiative
                    Coordinator.
Results of          VA’s reliance on OPM’s oversight of the prime vendor to plan and execute
Inadequate          the conferences resulted in VA relinquishing its responsibility and
Oversight of
SPI Purchases
                    accountability to sufficiently monitor and review conference-related
                    expenditures.    VA’s inadequate oversight and accountability led to
                    questioned purchases totaling about $1.1 million spent on conference-related
                    SPI purchases, $697,000 in inappropriate service fees paid to the prime
                    vendor, and $132,000 in service fees paid to OPM associated with
                    inadequate oversight.

Conclusion          We identified systemic issues with VA’s oversight of SPI purchases because
                    VA placed its trust and reliance on OPM to manage and administer the IA
                    without establishing adequate oversight. This resulted in VA relinquishing
                    its responsibility and accountability to sufficiently monitor and review
                    conference-related expenditures. The issues discussed in this report raise
                    questions regarding whether VA is receiving value from its assisted

VA Office of Inspector General                                                                 10
                                              Review of VA’s SPI Purchases for Training Conferences


                    acquisition IAs with OPM and whether VA should contract for
                    conference-related goods and services internally.

                    Recommendations

                    1.	 We recommended the Assistant Secretary for Human Resources and
                        Administration consider discontinuing the use of assisted acquisition
                        interagency agreements with the Office of Personnel Management for
                        planning and conducting training conferences.
                    2.	 We recommended the Assistant Secretary for Human Resources and
                        Administration establish controls to ensure adequate visibility and
                        oversight of separately priced items purchased through existing
                        interagency agreements with the Office of Personnel Management, to
                        include ensuring proposed purchases are approved in advance and
                        determined to be for incidental items that support essential tasks
                        developed under the interagency agreement.
                    3.	 We recommended the Assistant Secretary for Human Resources and
                        Administration ensure that VA receives and reviews invoices or receipts
                        that support all separately priced items purchased through existing
                        interagency agreements with the Office of Personnel Management prior
                        to authorizing payment.
                    4.	 We recommended the Principal Executive Director, Office of
                        Acquisition, Logistics, and Construction update its policy to ensure a
                        qualified individual with appropriate training in contracting is assigned to
                        all existing interagency agreements with the Office of Personnel
                        Management to monitor work performed on VA’s behalf.
                    5.	 We recommended the Principal Executive Director, Office of
                        Acquisition, Logistics, and Construction request the Office of Personnel
                        Management review all bills associated with VA’s financial management
                        training conferences, assess the results of the Office of Personnel
                        Management’s review, and take steps to recover service fees paid to the
                        prime vendor as a percentage of the cost of separately priced item
                        purchases.
                    6.	 We recommended the Principal Executive Director, Office of
                        Acquisition, Logistics, and Construction assess the Office of Personnel
                        Management’s oversight of separately priced items purchased through
                        the interagency agreement used to fund, plan, and conduct VA’s financial
                        management training conferences, and take steps to recover service fees
                        paid to the Office of Personnel Management associated with inadequate
                        oversight.




VA Office of Inspector General                                                                   11
                                             Review of VA’s SPI Purchases for Training Conferences


Management          The Assistant Secretary for Human Resources and Administration concurred
Comments            with recommendations 1, 2, and 3 and provided action plans to address the
and OIG
Response
                    recommendations.

                    The Assistant Secretary’s comments and action plans were responsive to the
                    intent of our recommendations. HR&A will work with the Office of
                    Acquisition Operations (OAO) to transition to direct contracts for many
                    services currently provided through OPM, with the goal of transitioning most
                    contracts for training by FY 2015. OAO modified VA’s agreement with
                    OPM requiring OPM to provide VA invoice reconciliations. HR&A
                    provided program offices verbal guidance on approving SPIs and plans to
                    develop a process to ensure VA reviews documentation that supports billed
                    charges.

                    HR&A requested closure of recommendations 1 and 2 based on corrective
                    actions taken. However, we will monitor implementation of action plans and
                    will close the recommendations when we receive sufficient evidence
                    demonstrating HR&A’s progress in addressing the issues identified.
                    Appendix D contains the full text of the Assistant Secretary’s comments.

                    The Principal Executive Director, Office of Acquisition, Logistics, and
                    Construction (OALC) concurred with recommendations 4, 5, and 6 and
                    provided action plans to address the recommendations.

                    The Principal Executive Director’s comments and action plans were
                    responsive to the intent of our recommendations. OALC will revise its IA
                    policy to help ensure VA assigns qualified individuals with appropriate
                    training to monitor existing and future IAs. In addition, OALC sent a letter
                    to OPM requesting a review of all bills associated with VA’s financial
                    management training conferences and will assess the results of OPM’s
                    review. Based on the assessment, OALC will coordinate with OPM to
                    recover inappropriate service fees paid to the prime vendor and will take
                    steps to recover service fees paid to OPM related to inadequate oversight of
                    SPI purchases.

                    We will monitor implementation of these action plans and will close the
                    recommendations when we receive sufficient evidence demonstrating
                    OALC’s progress in addressing the issues identified. Appendix E contains
                    the full text of the Principal Executive Director’s comments.




VA Office of Inspector General                                                                 12
                                              Review of VA’s SPI Purchases for Training Conferences


Appendix A          Background

ADVANCE             As part of the Secretary’s initiative to transform VA into a 21st century
                    organization, VA’s Human Capital Investment Plan was branded as
                    ADVANCE and launched in FY 2010 as an agency-wide effort to build and
                    sustain VA’s succession and workforce planning. HR&A manages the
                    ADVANCE program, which provides services including:

                       Veterans’ employment
                       Recruitment and retention services
                       Labor management
                       Employee compensation and safety
                       Workforce development and training

Interagency         VA uses IAs to obtain goods and services through other Federal agencies to
Agreements          support ADVANCE. The two types of IAs are direct acquisitions and
                    assisted acquisitions. In a direct acquisition, the requesting agency places an
                    order directly against a contract held by the servicing agency. The servicing
                    agency manages the contract but does not participate in the placement of an
                    order. In an assisted acquisition, the requesting agency enters into an
                    agreement that allows the servicing agency, on behalf of the requesting
                    agency, to award a contract, task order, or delivery order.

                    VA’s ADVANCE-related IAs generally involved assisted acquisitions, with
                    OPM acting as the servicing agency. These IAs typically have two parts,
                    Part A and Part B. Part A of an IA establishes the general terms of the
                    agreement, and Part B details requirements and funding information.

Strategic           The Strategic Management Group (SMG) is responsible for overseeing
Management          ADVANCE spending through IAs. It prioritizes and monitors the use of
Group and
Office of
                    ADVANCE funds, to include procurements and expenditure rates. OAO
Acquisition         reviews IA proposals and determines whether they agree with the use of each
Operations          IA. SMG and OAO are both involved in negotiating, administering, and
                    modifying IAs but do not provide oversight and management of IA tasks.




VA Office of Inspector General                                                                  13
                                              Review of VA’s SPI Purchases for Training Conferences


Appendix B          Scope and Methodology

Scope               We conducted our review from November 2012 through August 2013. The
                    scope of our review included all SPI purchases associated with three VA
                    financial management training conferences held in 2010 and 2011. VA used
                    an assisted acquisition IA with OPM to fund, plan, and conduct these three
                    conferences.
                    This review focused on three financial management training conferences that
                    included significant SPI expenses. Previous VA OIG reports identified
                    significant issues with VA’s assisted acquisition IAs with OPM and with
                    training conference expenditures. However, SPI purchases were not a focus
                    of these previous reports.
                    VA conducted a fourth financial management training conference in
                    August 2012. However, it was considerably smaller in size and scope, and
                    did not include significant SPI purchases. Therefore, we did not include the
                    fourth conference in the scope of our review.
Methodology         We reviewed and analyzed the Federal Acquisition Regulation, Federal law,
                    VA policies, the IA, and associated management plans, including tasks
                    related to SPI purchases for the conferences. Additionally, we reviewed
                    OPM guidelines and its contracts with the prime vendor. We interviewed
                    officials and staff from OPM, the prime vendor, SMG, Office of Finance,
                    OAO, and HR&A to obtain information on their roles and responsibilities
                    related to the conferences and the SPI approval and purchase process.
                    To assess the effectiveness of VA’s controls over the SPI process, we
                    examined VA’s oversight process and controls. We interviewed the
                    individual designated as the VA COR to monitor the conferences. The
                    purpose of this was to determine the individual’s training and qualifications,
                    as well as VA’s procedures for approving SPIs. Specifically, we determined
                    whether the individual approved SPIs prior to purchase and to what extent
                    VA verified costs listed on DRFs prior to approval for payment.
Data Reliability    VA’s Office of Finance provided us with total reported costs for the three
                    conferences, which we show in Table 1 on page 3 of this report. We did not
                    obtain, review, or validate the costs for VA employee travel, which made up
                    a significant portion of the total conference costs. Instead, we focused our
                    review on the costs associated with conference-related SPI purchases. To
                    gain reasonable assurance that SPI costs were reliable, we compared cost
                    data provided by VA, OPM, and the prime vendor. We did not identify
                    inconsistencies that caused us to question the validity of the SPI cost data
                    provided. Therefore, we gained reasonable assurance that the SPI cost data
                    were sufficiently reliable for the purpose of this review.
                    To ensure cost spreadsheets provided by the prime vendor were sufficiently
                    reliable, we evaluated the data and verified the accuracy with prime vendor
                    staff. Specifically, we reviewed all relevant cells in the spreadsheet to ensure

VA Office of Inspector General                                                                   14
                                            Review of VA’s SPI Purchases for Training Conferences


                    the prime vendor accurately recorded formulas, formats, and figures.
                    Additionally, we asked the prime vendor several questions in an effort to
                    confirm the data contained in the spreadsheet were protected against being
                    unintentionally altered, reviewed by multiple sources, and supported by
                    source documentation. Based on this evaluation, we determined the prime
                    vendor’s data were sufficiently reliable for the purposes of our review. We
                    believe these procedures were sufficient to support this review.
Government          We conducted this review under the Quality Standards for Inspection and
Standards           Evaluation issued by the Council of the Inspectors General on Integrity and
                    Efficiency in January 2012.




VA Office of Inspector General                                                                15
                                             Review of VA’s SPI Purchases for Training Conferences


Appendix C          Potential Monetary Benefits in Accordance                              With
                    Inspector General Act Amendments



                                           Explanation of          Better Use      Questioned
               Recommendation
                                             Benefits               of Funds         Costs


                                    Goods and services for
                                    the conferences that           $1.1 million
                        2                                                                  $0
                                    should not have been            (see Note)
                                    purchased as SPIs

                                    Service fees charged to
                                    VA by the prime vendor
                        5                                                 $0        $697,000
                                    as a percentage of the
                                    cost of SPI purchases

                                    OPM service fees
                                    related to spending on
                        6	          goods and services that               $0        $132,000
                                    should not have been
                                    purchased as SPIs

                                                       Total      $1.1 million     $829,000


             Note: We calculated the better use of funds as 20 percent of the amount spent on
                   goods and services that should not have been purchased as SPIs
                   ($5.3 million). We recognized VA would have incurred some expenses
                   related to the essential items purchased as incidentals, but we believe if the
                   prime vendor had an incentive to control costs, the goods and services could
                   have been obtained at a lower price. Without historical data on which to
                   determine potential savings, we estimated the prime vendor could have
                   obtained these goods and services at a 20 percent savings under competitive
                   contracting.




VA Office of Inspector General                                                                  16
                                                     Review of VA’s SPI Purchases for Training Conferences


Appendix D               Assistant Secretary for                      Human          Resources          and
                         Administration Comments



                 Department of                                    Memorandum
                 Veterans Affairs
         Date:    September 26, 2013

         From:    Assistant Secretary for Human Resources and Administration (006)

         Subj:	   Draft Report: Review of Separately Priced Item Purchases for VA’s Financial
                  Management Training Conferences (Project No. 2013-0045-R1-0021)

           To:    Inspector General (OIG)
                  The Assistant Inspector General for Audits and Evaluations requested that the
                  Office of Human Resources and Administration (HRA) review and provide
                  concurrence on the draft report, “Review of Separately Priced Item Purchases for
                  VA’s Financial Management Training Conferences (Project No. 2013-0045-R1-
                  0021),” recommendation numbers one, two, and three.
                  HRA has completed its review of the draft recommendations and submits the
                  following:
                  Recommendation 1: We recommend the Acting Assistant Secretary for
                  Human Resources and Administration consider discontinuing the use of
                  assisted acquisition interagency agreements with the Office of Personnel
                  Management for planning and conducting training conferences.
                  Concur. Human Resources and Administration (HRA) will continue to work with
                  the Office of Acquisition Operations (OAO) to transition to direct contracts, where
                  appropriate, for many of the services currently provided through the Office of
                  Personnel Management (OPM), with a goal of transitioning most contracts for
                  training from OPM by FY 2015. This process began with HRA’s FY 2013
                  acquisitions.
                  We request this recommendation be closed.

                  Recommendation 2: We recommend the Acting Assistant Secretary for
                  Human Resources and Administration establish controls to ensure adequate
                  visibility and oversight of separately priced items purchased through existing
                  interagency agreements with the Office of Personnel Management, to include
                  ensuring proposed purchase are approved in advance and determined to be
                  for incidental items that support essential tasks developed under the
                  interagency agreement.
                  Concur. OAO amended the Department of Treasury form 7600 Part A, Terms and
                  Conditions, outlining VA’s agreement with OPM to specify that invoice
                  reconciliations will be provided as part of the OPM-provided financial information.




VA Office of Inspector General                                                                           17
                                                 Review of VA’s SPI Purchases for Training Conferences




              Page 2.

             Subj: Draft Report: Review of Separately Priced Item Purchases for VA’s Financial
             Management Training Conferences (Project No. 2013-0045-R1-0021)


              In early August, the Acting Assistant Secretary for Human Resources and
              Administration issued verbal guidance to the program offices instructing program
              offices to approve Separately Price Items (SPIs) only after appropriate consultation
              and only in accordance with agency policies and directives. This guidance was
              further implemented by a process established in VALU and formalized via memo
              from the Dean, VA Learning University dated September 11, 2013 (see attached*).
              The Dean is the approving official.

             We request this recommendation be closed.

             Recommendation 3: We recommend the Acting Assistant Secretary for
             Human Resources and Administration ensure that VA receives and reviews
             invoices or receipts that support all separately priced items purchased
             through existing interagency agreements with the Office of Personnel
             Management prior to authorizing payment.

             Concur. OAO has amended the Department of Treasury form 7600 Part A, Terms
             and Conditions, outlining VA’s agreement with OPM to specify that invoice
             reconciliations will be provided as part of the OPM-provided financial information.
             HRA will work with the Office of Acquisitions Operations (OAO) and with the Office
             of Personnel Management (OPM) to ensure that VA receives invoices, receipts, or
             other detailed documentation supporting separately priced items purchased
             through existing interagency agreements with OPM, and will establish a process to
             ensure they are reviewed prior to authorizing payment in accordance with
             Procurement Policy Memorandum 2013-06,which was updated and redistributed
             July 11, 2013, to ensure that the PPM will require servicing agencies to provide
             invoices supporting the purchases of goods and any services not billed as labor.

             Finally, as we migrate to new acquisition vehicles, HRA will work with OAO to
             minimize the use of SPIs by properly defining the requirements in advance.




            *Attachment not included in this report.


VA Office of Inspector General                                                                       18
                                                      Review of VA’s SPI Purchases for Training Conferences


Appendix E               Principal Executive Director, Office of Acquisition,
                         Logistics, and Construction Comments



                 Department of                                 Memorandum
                 Veterans Affairs
         Date:    September 24, 2013

         From:	   Principal Executive Director, Office of Acquisition, Logistics, and Construction (003)

         Subj:	   Draft Report: Review of Separately Priced Item Purchases for VA’s Financial
                  Management Training Conferences (Project No. 2013-0045-R1-0021) (VAIQ 7391321)

           To:    Assistant Inspector General for Audits and Evaluations (52)
                 1. The Assistant Inspector General for Audits and Evaluations requested that the
                 Office of Acquisition, Logistics, and Construction (OALC) review, concur, and
                 comment on the Office of Inspector General’s draft report titled, “Review of
                 Separately Priced Item Purchases for VA’s Financial Management Training
                 Conferences, Project Number 2013-0045-R1-0021.”
                 2. OALC concurs with the findings of the report and provides the following

                 comments to recommendations numbered four, five, and six.
                    a. Recommendation 4: We recommend the Principal Executive Director,
                    Office of Acquisition, Logistics, and Construction update its policy to ensure a
                    qualified individual with appropriate training in contracting is assigned to all
                    existing interagency agreements with the Office of Personnel Management
                    [OPM] to monitor work performed on VA’s behalf.
                    OALC Response: Concur. OALC will revise the current Interagency
                    Agreement Procurement Policy Memorandum to include language that requires
                    Heads of the Contracting Activities to develop and implement guidance ensuring
                    only qualified individuals with appropriate training are assigned to all existing
                    and future interagency agreements. The revision will be effective no later
                    than the end of the first quarter fiscal year 2014.
                    b. Recommendation 5: We recommend the Principal Executive Director,
                    Office of Acquisition, Logistics, and Construction request the Office of Personnel
                    Management reviews all bills associated with VA’s financial management
                    training conferences, assess the results of the Office of Personnel
                    Management’s review, and take steps to recover service fees paid to the prime
                    vendor as a percentage of the cost of separately priced item purchases.

                    OALC Response: Concur. OALC requested in the attached letter that the
                    Office of Personnel Management (OPM) review all bills associated with VA’s
                    financial management training conferences (see Attachment*.) In addition,
                    OALC will assess OPM’s review and coordinate with OPM to ensure recovery of
                    service fees paid to the OPM prime vendor as a percentage of the cost of
                    separately priced item purchases. Completion of necessary reviews is
                    estimated to be March 1, 2014.




VA Office of Inspector General                                                                             19
                                                Review of VA’s SPI Purchases for Training Conferences




            Page 2.

            Draft Report: Review of Separately Priced Item Purchases for VA’s Financial
            Management Training Conferences (Project No. 2013-0045-R1-0021) (VAIQ 7391321)




               c. Recommendation 6: We recommend the Principal Executive Director,
               Office of Acquisition, Logistics, and Construction assess the Office of Personnel
               Management’s oversight of separately priced items purchased through the
               interagency agreement used to fund, plan, and conduct VA’s financial
               management training conferences, and take steps to recover service fees paid
               to the Office of Personnel Management associated with inadequate oversight.

               OALC Response: Concur. Resulting from aforementioned OPM review, OALC
               will assess the review and take steps to recover associated interagency
               agreement (IAA) service fees paid to OPM due to the identified lack of oversight
               by OPM in managing separately priced item purchases, as required by the IAA
               terms and conditions between the two parties. Completion of necessary
               reviews is estimated to be March 1, 2014.

            3. Should you have any questions, please contact Ms. Annette Powe, at
            (202) 632-5454 or Annette.powe@va.gov.




            *Attachment not included in this report.


VA Office of Inspector General                                                                     20
                                         Review of VA’s SPI Purchases for Training Conferences


Appendix F          Office of Inspector General Contact and Staff
                    Acknowledgments

                      OIG Contact 	          For more information about this report, please
                                             contact the Office of Inspector General at
                                             (202) 461-4720.

                      Acknowledgments	       Nick Dahl, Director
                                             Irene J. Barnett
                                             Stephen Bracci
                                             Michael Cannata
                                             John Cintolo
                                             Ron Comtois
                                             Michael Derick
                                             Karen Hatch
                                             David Orfalea
                                             Joseph Vivolo




VA Office of Inspector General                                                             21
                                             Review of VA’s SPI Purchases for Training Conferences


Appendix G          Report Distribution

                    VA Distribution

                    Office of the Secretary
                    Veterans Health Administration
                    Veterans Benefits Administration
                    National Cemetery Administration
                    Assistant Secretaries
                    Office of General Counsel

                    Non-VA Distribution

                    House Committee on Veterans’ Affairs
                    House Appropriations Subcommittee on Military Construction, Veterans
                      Affairs, and Related Agencies
                    House Committee on Oversight and Government Reform
                    Senate Committee on Veterans’ Affairs
                    Senate Appropriations Subcommittee on Military Construction, Veterans
                      Affairs, and Related Agencies
                    Senate Committee on Homeland Security and Governmental Affairs
                    National Veterans Service Organizations
                    Government Accountability Office
                    Office of Management and Budget


                    This report is available on our Web site at www.va.gov/oig.




VA Office of Inspector General                                                                 22
